supreme Court, U S
FILED

DEC 1 4 2020
OFFICE of the CLERk-

No.

JO-133

SUPREME COURT OF THE UNITED
STATES

In re JACK R. FINNEGAN, Petitioner
v.

COURT OF APPEALS, Respondent

PETITION FOR WRIT OF MANDAMUS
OR OTHER APPROPRIATE RELIEF
APPELLATE CASE NO. 19 56360
DISTRICT COURT CASE NO. 8:i9-cv-02110-JLS-

Jack R. Finnegan
Counsel ofRecord
871 Avenida Acapulco
San Clemente, CA 92672
949-492-3837

QUESTIONS PRESENTED FOR REVIEW
The courts have no authority to arbitrarily
impose a misapplication of a legal doctrine to an
action in equity. This elliptical action leads to
incorrect results in classification of actions. None of
the extraordinary powers of a court of equity are
required in order to give relief sought. In classifying
an action as legal or equitable, the court should look
to its substance, i.e. to the nature of the right
involved and the demand for remedy sought.
Rights are such as belonging to every citizen of
the United States by the United States Constitution.
Nowhere in the document filed with the
District court, Request For An Injunction, Pursuant
to 28 USC SS1367(aO, 1657(a), 1746, and FRCP Rule
65(d) and Applicable Provisions of Rule 52(a)(b)(c),
was a demand for damages only equitable relief was
stated.
The Appellate Memorandum apparently was
conceived upon bias and prejudice, as if to say that
acting for oneself, somehow diminishes the United
States or California Constitutional guarantees.
Was Petitioner denied under the Equal
Protection Clause, the 14th Amendment guarantee
that the government must treat a person or class of
persons the same as other persons or classes in like
circumstances?
The ground for equitable relief among others
is intrinsic and extrinsic fraud by preventing a fair
adversary proceeding, which cannot be enforced.
See, Goldberg v. Kelly, 397 U.S. 254 (1970): United
States v. Throckmorton (1878) 98 U.S. 61, 25 L.Ed.
93.

LIST OF PROCEEDINGS
United State District Court, of Equity
Jurisdiction, Case No. 8:i9-cv-02110-JLS, Request
for Injunction, 28 USC 851367(a), 1657(a), and 1746,
FRCP 65(d), and applicable provisions of Rule
52(a)(b)(c). Date of Opinion, November 18, 2019.
United State Court of Appeals, for the Ninth
Circuit, 19-56360,'City of Dana Point, Memorandum,
Date of Order, November 3, 2020.
TABLE OF CONTENTS
Question Presented
List of Proceedings
Table of Contents
Table of Authorities
Basis of Jurisdiction
Constitutional, Statutory Provisions
Federal Questions
Reason for Granting the Writ
Statement of Issues
Conclusion
Prayer
Verification
Certificate of Compliance

i

n
n
IV

vi
vi
vi
Vlll

1
13
15
16
16

TABLE OF AUTHORITIES
UNITED STATES CONSTITUTION
United States Constitution vi, vii, ix, 1, 2, 12, 13
Article I, Section 10[l]
1
Article III, Section 2[l]
4
Article III, Section 2[2]
1
Article VI, Section [.2]
13
u

Fourth Amendment
13
Fifth Amendment i, vi, viii, 1, 2, 3, 4, 6, 9, 10, 15
Sixth Amendment
12
Ninth Amendment
12
Fourteenth Amendment i, vi, viii, 3, 8, 10, 15
CALIFORNIA CONSTITUTION
California Constitution
Article 1 81
Article 1 83(b)(2)
Article 1 83(b)(4)
Article 1 84
Article 1 87(a)
Article 1 87(b)
Article 1 89
Article 1 813
Article 1 815
Article 1 819(a)
Article 1 819(c)
Article 1 819(e)(3)
Article 1 819(b)
Article 1 824
Article 1 826
Article 1 828(e)
Article 1 828(f)
Article 3 81
Article 4 816(a)
Article 4 816(b)
Article 6 813
Article 11 87
Article 11 813

ix, 3, 12, 15
10, 12
12
10, 12
vi, 10
vi, 10, 12
vi, 12
10, 12
vi, 10
10
vi, 10, 12
12
vi, 12
vi, 10, 12
vi, 12
vi, 10, 12
10, 12
10, 12
10, 12
12
12
10, 12 '
12
12

in

TABLE OF AUTHORITIES, CASES
Armstrong v. United States, 364 U.S.
40, 49 (i960) (Just Compensation)
4,8
Berman v. Parker, 384 U.S.
26 (1954) (Public Use)
9
Bogart v. Chapell, 396 F.3d 548, 555
(4th Cir. 2005) (Clear legal error)
10
Central Vermont Pub. Serv. Corp., v. Herbert
341 F3d 186, 190 (2««* Cir. (2003) (Clear
usurpation of judicial power)
10
Cole v. LaGrange, 113 U.S.
1, 8 (1885) (Public Use)
5
Continental Gas Co., v. Howard, 775 F.2d
876 (7* Cir 1985)> (Real parties)
11
Dolan v. City of Tigard, 512 U.S.
374 (1994) (Taking)
9
FCC v. Beach Communications Inc., 508 U S
307, 313-314 (1993) (Due Process and
Equal Protection)
9
Ferguson, 852 P2d at 207 (Direct Invasion) 8
First English Evangelical Lutheran
Church v. County ofLos Angeles, 482 U.S.
304 (1987) (Due Process)
9
Frothingham v. Mellon, 262 U.S.
447 (1923), (Jurisdiction)
3, 10
Goldberg v. Kelly, 397 U.S. 254 (1970)
(Trial type hearings)
i, 1, 12
Gonzalez V. Crosby, U.S. 125 S. Ct.
2641, 2646 Lm. 2d. (2005) (Exception To
Finality)
12
Gonzales v. Raich, [citation omitted] (Taking)
3
Hawaii Housing Authority v. Midkiff 467 U S
229, 241, (1984) (Public Use)
9
IV

Henry v. Mississippi, 379 U.S. 443 (1965)
14
In re Jessup, (1889) 81 C. 408, 21 P. 976, 22
P. 742, 22 P. 1028. (Errors of law)
11
Jacobs v. United States, 290 U.S. 13 (1933),
quoted in, Cotton Land Co. v. United States,
109 Ct. Cl. 816 (1948) (Taking)
2
Marhury v. Madison, 1 Cranch 137, 174
(1803) (Public Use)
5
Missouri Pacific R. Co. v. Nebraska, 164 U.S.
403, 417 (1896) (Public Use)
5
Monongahela Nav. Co. v. United States,
148 U.S. 312, 325 (1893) (Just Compensation)
4
Mulger v. Kansas, 123 U.S. 623 (1887)
8
Muskrat v. United States, 219 U.S. 346
8
(1911) (Real Party in Interest)
Myers v. United States, 272 U.S. 52, 151
(1926) (Public Use)
5
Palazzolo v. Rhode Island, 533 U.S. 606 (2001)
(Ripe for Review)
9
Sabri v. United States, 541 U.S. 600, 613
(2004) (Taking)
3
San Diego Gas & Electric Co. v. City ofSan
Diego, 450 U.S. 621, 638 n.2 (1981) (Taking)
8
Servants ofParaclete v. Does, 204 F.3d 1005,
1012 (10th Cir. 2000) (Misunderstood controlling
law)
11
Thompson v. Consolidated Gas Util. Corp., 300
U.S. 55, 80 (1937) (Public Use)
5
United States v. Clarke, 445 U.S.
253, 257 (1980) (Taking)
8
United States v. Cress, 243 U.S. 316, 328,
37 S. Ct. 380, 385 (Direct Invasion)
8
United States v. Throckmorton (1878) 98 U.S.
61, 25 L. Ed. 93 (Jurisdiction)
i, 1, 12

Wellenkamp v. Bank ofAmerica, 21 Cal. 3d 043
947, 582 P. 2d 970, 972 (1978), (Must plead
facts)
11
Williams v. Georgia, 349 U.S. 375, 399 (1955)
Williamson v. Lee Optical of Okla., Inc., 348 U.S.
483 (1955) (Due Process and Equal Protection)
9
Yee v. Escondido, 112 S. Ct. 1522 (1992) (Taking) 3
28 USC 1651(a)
28 USC 1652
10
California Civil Code, 3422(l)(2)(3) &3482
12, 15
California Code of Civil Proceed., 526(a)(l)(2) 12
BASIS OF JURISDICTION
The basis of jurisdiction issuance by the Court of an
extraordinary writ is authorized by Article III,
Section 2[l], 28 USC 681292(a)(1), and 1651(a).
CONSTITUTION STATUTORY PROVISIONS
Fifth Amendment, , Deprived of Property, Due
Process of Law, Property taken for public use
without just compensation.
Fourteenth Amendment, No State shall make or
enforce any law which shall abridge the privileges or
immunities, life, liberty, or property without due
process of law, nor deny equal protection of the laws.
CALIFORNIA CONSTITUTION
Article 1 84, deprived of property without due process
of law.
Article 1 87(a), Due process or equal protect of laws.
Article 1 87(b), Invidious Discrimination.
vi

Article 1 §13, Unreasonable seizures.
Article 1 519(a), Private property may not be taken,
without compensation, ascertained by a jury.
Article 1 519(b), Eminent domain, owner occupied,
for the purpose of conveying it to a private person.
Article 1 519(e)(3), Owner occupied residence
includes independent living facilities.
Article 1 524, Rights guaranteed, not dependent on
the United States Constitution.
Article 1 526, These Provisions are mandatory and
prohibitory.
FEDERAL QUESTIONS RAISED
The Federal question of the United States
Constitution, and Federal Statutes were raised in
each and every court proceeding by Motions, Opening
Briefs, and Reply Briefs.

Vll

REASON FOR GRANTING THE WRIT
The decisions by the lower courts in the
unsupportable wisdom of the departure of
established Constitutional guarantees and laws
established by the United States Constitution and
United States Supreme Court, and contributed to
the irreparable injury caused by Taking, and the
miscarriage of justice.
Published decisions has precedential effect,
pursuant to the Doctrine of Principles of law.
Mandate will lie where it appears judicial discretion
could be exercised in only one way, and where the
Appellate Court is under a duty to' act in a particular
way but refuses to do so and where the facts support
only one decision. A. writ of mandate issues to
correct an abuse of discretion or compel the
performance of a duty. There is no other adequate
remedy in the ordinary course of law.
This petition involves one or more questions of
exceptional importance, the panel’s decision conflicts
with the authoritative guarantees of the United
States Constitution and that of published decisions
of the United States Supreme Court and every other
United States Court of Appeals that has addressed
the issue.
It is necessary to resolve this issue promptly,
because it constitutes exceptional circumstances
warranting writ review, and to grant immediate writ
review in the interest of decided law. The Official
Record supports the substantial evidence of the
Taking, and the sale to another private person.
Interests comprehended within meaning of
either “liberty” or “property” under procedural
viii

guarantees of the due process clause of the Fifth and
Fourteenth Amendment include interests that are
recognized and protected by state law, and interests
guaranteed in one of the provisions of the Bill of
Rights which have been incorporated into the Fifth
Amendment; “nor he deprived of life, liberty, or
property, without due process of law, nor shall
private property be taken for public use, without just
compensation.” See, Paul v. Davis, 424 U. S. 693 47
S. Ct. 1155, 32 L Ed. 2d 405 (1976).
The self-enforcing desistance of Article III,
Section 2[l], authorized “The Judicial Power shall
extend to all Cases, in law and Equity, arising under
this Constitution, the laws of the United States”, the
principles of federalism still have weight. See, Rizzo
v. Goode, 423 U.S. 362, 46 S. Ct. 598, 40 L. Ed. 2d
561 (1976).
Extraordinary circumstances justify federal
judicial intervention exist where there is a threat of
irreparable injury which is both great and
immediate. See, Mitchumv. Foster, 407 U. S. 225,
92 S. Ct. 2151, 32 L Ed. 2d 705 (1972). Where there
is a showing of bad faith or harassment by state
officials, or where the commencement and carry out
of a legal action has been undertaken without hope of
obtaining a valid judicially sound result where the
proceeding is flagrantly and patently violative of
expressed constitutional prohibitions, or where there
are other extraordinary circumstances in which the
necessary irreparable injury can be shown. Kuglerv. HeIfant, 407 U. S. 117, 95 S. Ct. 1524, 44 L Ed. 2d
15 (1975). Middlesex County Ethics Committee v.
Garden State Bar Assn 457 U.S. 423, 102 S. Ct.
2515, 73 L. Ed. 2d 116 (1982).
IX

The Petition for Writ of Mandamus should be
granted because the illegal Order involves several
clauses of violations of the United States
Constitution, and several clauses of violations of the
California Constitution and several violations of
Federal and California State Statutes. This was a
clear case of Government Overreaching, intrinsic and
extrinsic fraud, and an illegal taking of personal and
real property, and substantial denial in the interest
of justice. These are compelling reasons because the
Orders decided important federal questions and has
departed from accepted and usual course of judicial
procedure as to call for an exercise of this Courts
supervisory power, to correct a miscarriage of justice.
The granting of the writ will be in aid of the
Court’s appellate jurisdiction, that exceptional
circumstances of Constitutional guarantees being
violated, warrant the exercise of the Court’s
discretionary powers, and that adequate relief cannot
be obtained in any other form or from any other
court.
Jack R. Finnegan purchased the subject
property in 1963, designed the home, (Licensed
Architect), built the home, permit #B05994 and
#B00126 (Licensed General Contractor), prior to the
City ever existing, (26 years), made timely mortgage
and property tax payments for over 52 years, had the
property illegally taken on 12/1/14 without one cent
being deposited with the court and the property was
sold to a private individual, on 3/23/17 a violation of
Federal and State Constitutions.

x

MAY IT PLEASE THE COURT
STATEMENT OF ISSUE
Was Petitioner denied his historical basis and
inalienable right to decide matters in equity?
An injunction is a typical form of equitable
relief sought for an action arising out of a tort against
violations of persona l rights established by the United
States Constitution,
The United States Constitution guarantees the
fights, power, privilege, or immunity and Due Process
and Equal Protection.
These Rights are such as belonging to every
citizen of the United States by the 4th, 5th, 9th, and
14th, Amendments, prior to the infringement of
individuals’ rights and entitlements? Notable, in
Goldberg v. Kelly, 397 U.S. 254 (1970).
The ground for equitable relief among others is
fraud by preventing a fair adversary proceeding,
which cannot be enforced.
United States v.
Throckmorton (1878) 98 U. S. 61, 25 L. Ed. 93.
Was Petitioner (hereinafter Finnegan) denied
his United States Constitutional rights under Article
I, Section 10[l], Article III, Section 1, Article III,
Section 2[l], and Article III, Section 2[2] of the United
States Constitution as it relates to this proceeding?
The simple fact is the City violated several
fundamental rights, (The Public Use and the Taking
Clauses) of both Constitutions, took private property
from Finnegan, and gave it to another private party,
and took not legally justified unjust enrichment.
-1-

The Taking clause is a prohibition, not a grant
of power, the Constitutions both the United States
and California does not expressly grant the
government the power to take property for any
purpose whatsoever, and thereby invades individuals’
traditional rights in real and personal property, “To
lay hold of! to gain or receive into possession; to seize."
to deprive one of the use or possession of to assume
ownership is a Taking.”
The Constitution provides that a man’s
property shall not be taken for public uses without
just compensation. Fifth Amendment of the United
States Constitution. Property may be deemed “taken”
within the meaning of these constitutional provisions
when it is totally destroyed or rendered valueless, or
in connection with an actual taking or when there is
interference with the use of property to owner’s
prejudice, with resulting diminution in value thereof.
A “Taking” has occurred when an entity clothed with
power of eminent domain substantially deprives
owner of use and enjoyment of his property “Taking”
of property within the Consti tution is not restricted to
mere change of physical possession but includes
permanent or temporary deprivation of use to owner
if such deprivation amounts to abridgement by reason
of state of lawful rights of ind ividual to possession , use
or enjoyment of his land.
It is well settled that all Taking claims are
under the Constitution. See, Jacobs v. United States,
290 U.S. 13 (1933), quoted in, Cotton Land Co. v.
United States, 109 Ct. Cl. 816 (1948).

-2-

The Government may take property only when
necessary and proper to the exercise of an expressly
enumerated power. For a law to be within the
Necessary and Proper Clause, it must be an “obvious,
simple, and direct relation” to an exercise of Congress
enumerated powers, Sabri v. United States, 541 U.S.
600, 613 (2004), and must not “subvert basic
principles of constitutional design, Gonzales v. Raich,
[citation omitted] in other words, a taking is
permissible under the Necessary and Proper Clause
only if it serves a valid public purpose. See, Yee v.
'Escondido, 112 S. Ct. 1522 (1992) The Taking practice
largely bears out this understanding of the Public Use
Clause of the Fifth Amendment (adopted in 1868) and
the California Constitution (adopted in May 7, 1879)
Article 1, Section 19(a) and 19(b), and the limits of the
Fourteenth Amendment of (adopted in 1868).
In Frothingham v. Mellon, 262 U.S. 447 (1923),
a unanimous Supreme Court held that the proceeding
“must be disposed of for want of jurisdiction” because
the City “has no such interest in the subject-matter,
nor is any such injury inflicted or threatened, as will
enable the City to sue”.
Chief Justice Burger added; “To permit a
petition who has no concrete injury to require a court
to rule on important constitutional issues in the
abstract would create the potential for abuse of the
judicial process, distort the role of the Judiciary.
Though citizens might allege “an arguable conflict
with some limitation of the Constitution, it can only
be a matter of speculation whether the claimed

-3-

violation has caused concrete injury to the
particular complainant.” The fact that there was
genuine adverseness between the parties, assuring
able arguments, was not enough to justify recognition
of standing. Justice Stewart added, “Standing is not
found wanting because an injury has been suffered by
many, but rather because none of the petitioners has
alleged the sort of direct, palpable injury required for
standing under Article III of the Constitution. Justice
Douglas emphasized two ingredients of standing: (i)
The Article III requirement that the challenged action
Caused the petitioner “injury in fact” They were found
to lack standing —because theirs was not a “legal
injury.”
It has long been accepted that the sovereign
may not take the property of ”A” for the sole purpose
of transferring it to another private party “B”, even
though “A” is paid just compensation.
To reason that the incidental public benefits
from the subsequent ordinary use of private property
render Taking for public use, is to wash out any
distinction between private and public use of property,
and thereby effectively to delete the words for public
use from the Taking Clause of the Fifth Amendment.
The Taking must be for a public use and just
compensation must be paid to the owner.
The just compensation requirement spreads
the costs of condemnations and thus prevents the
public from loading upon one individual more than his
just share of the burdens of government.
Monongahela Nav. Co. v. United States, 148 U.S. 312,
325 (1893); see also Armstrong v. United States, 364
U.S. 40, 49 (i960). The public use requirement, in
-4-

turn, imposes a more basic limitation,
circumscribing the very scope of the eminent domain
power: Government may compel an individual to
forfeit his property for the public’s use, but not for the
benefit of another private person.
A purely private purpose scrutiny of the public
use requirement; it would serve no legitimate purpose
of government and would thus be void. Court cases
have repeatedly stated that one person’s property may
not be taken for the benefit of another private person
without a justifying public purpose, even though
’compensation be paid. Thompson v. Consolidated Gas
Util. Corp., 300 U.S, 55, 80 (1937); see also Missouri
PacificR. Co. v. Nebraska, 164 U.S. 403, 417 (1896).
Marbury v. Madison, 1 Cranch 137, 174 (1803);
Myers v. United States, 272 U.S. 52, 151 (1926); Cole
v. LaGrange, 113 U.S. 1, 8 (1885).
When the
government takes property and gives it to a private
individual, and the public has no right to use the
property, it strains language to say that the public is
employing the property. The term public use then,
means that either the government or its citizens as a
whole must actually employ the taken property. The
Constitution’s text, in short, suggests that the
Takings Clause authorizes the taking of property only
if the public has a right to employ it, not if the public
realizes any conceivable benefit from the taking. The
Public Use Clause, in short, embodied the Framers’
understanding that property is a natural,
fundamental right, prohibiting the government from
taking property from A. and giving it to B.
It is equally clear a City may transfer property
from one private party to another if future “use by the
-5-

public” is the purpose of the Taking. The City would
be forbidden from taking Finnegan’s property for the
purpose of conferring a private benefit on a particular
private party; it would serve no legitimate purpose of
government and would thus be void. Nor would the
City be allowed to take property under the mere
pretext of a public purpose, when its actual purpose
was to bestow a private benefit and the Taking was an
illegitimate purpose,
Other polar propositions
encompassing regulations that compel the property
owner to suffer a physical invasion of his property, no
matter how minute the intrusion, and no matter how
weighty the public purpose behind it, we have
required compensation. The other polar propositions,
is where regulation denies all economically beneficial
or productive use of the property.
The Fifth
Amendment is violated when regulation “does not
substantially advance legitimate state interests or
denies an economically viable use of his property.”
The Federal Courts frequently expressed belief
that when the owner of real property has been called
upon to sacrifice all economical beneficial use, he has
suffered a Taking.
Where permanent physical occupation of
property is concerned, the Courts have refused to
allow government to decree it anew (without
compensation), no matter how weighty the asserted
public interest involved similar treatment must be
accorded confiscatory actions that prohibit all
economically beneficial use of property.
Any
limitation so severe cannot be decreed (without
compensation). A law or decree with such an effect
must, do no more than duplicate the result that could
have been achieved in the courts.
-6-

The total Taking will ordinarily entail (as the
application of state nuisance law ordinarily entails)
analysis of the degree of harm to adjacent private
property. The fact that a particular use has long been
engaged in by similarly situated owners ordinarily
imports a lack of common-law prohibition, so also does
the fact that other landowners, similarly situated, are
permitted to continue the use, denied to Finnegan.
The City must identify background principles of
nuisance and property law that prohibit the uses in
which the property is found. Only on this showing can
'the City fairly claim the act is harmful or injurious to
its citizens or the community and is taking nothing,
and that it is not relying on an implausible state trial
court finding. The court has the power to decide a case
that turns on an erroneous finding unless the use
prohibited by the City is a background common-law
nuisance or property principle. The City may not
require a property owner to give up a constitutional
right, when no legitimate state interest exist. If the
City cannot demonstrate that its action is directly
proportional to the specifically legitimate state
interest, the action becomes a veiled exercise of the
power of eminent domain and a confiscation of private
property behind the defense of police regulations.
The distinction must be made between an
appropriate exercise of police power and an improper
exercise of a Taking is whether the requirement has
some reasonable relationship or nexus to the use to
which, the property is being made or is merely being
used as an excuse as an exercise for taking property.
The City must make some sort of individualized
determination that the action is
-7-

justified while Finnegan is defending hearth and
home against the king’s intrusion.
Taking of the entire parcel denied all viable
economic and productive use of property gives rise to
an unqualified obligation to compensate for value of
property, whenever government physically takes
property. No subsequent action by government can
relieve it of the duty to provide just compensation.
Interest in protecting individual property
owners from bearing public burdens which, in all
fairness and justice, should be borne by the public as
a whole. Armstrong v. United States, 364 U.S. 40 [438
U.S. 104, 124 49] (1960).
Due Process Clause of the 14th Amendment
. bars state governments from depriving people of their
property without due process of law. The first Clause
prevents government from depriving a person of
property without due process of law. It applies to any
deprivation of property, not just takings for public
purposes. The second prevents the government from
taking private property without just compensation.
The due process Clause of the 14th, Mugler v. Kansas,
123 U.S. 623 (1887).
They were the product of a direct invasion of
Finnegan’s domain as stated in United States v.
Cress, 243 U.S. 316, 328, 37 S. Ct. 380, 385; Ferguson,
852 P2d at 207 it is the character of the invasion.
Taking (or damaging) of property without just
compensation. San Diego Gas & Electric Co. v. City of
San Diego, 450 U.S. 621, 638 n.2 (1981), United States
v. Clarke, 445 U.S. 253, 257 (1980).
We are asked to hold that state courts and state
legislatures have deprived their own citizens of life,
liberty, and property without due process of law. First
-8-

English Evangelical Lutheran Church v. County of
Los Angeles, 482 U.S. 304 (1987).
The Supreme Court in Dolan v. City of Tigard,
512 U.S. 374 (1994), that a Taking had occurred when
the City did not show that any reasonable relationship
for public access for the Taking.
The Supreme Court in Palazzolo v. Rhode
Island, 533 U.S. 606 (2001), held that a Taking Claim
can be ripe for review if the owner did everything, he
could reasonable and necessary to avoid the loss, and
how much use and value may be destroyed before Just
Compensation is due. The Taking Clause is to prevent
the government from “forcing some people alone to
bear public burdens which, in all fairness and justice,
should be bourn by the public as a whole.
The United States Supreme Court has
established a number of tests under which a state
regulation constitutes a Taking per se. These are
physical invasion denial of all economical viable
private property uses among others.
The Public Use Clause of the United States
Constitution, Fifth Amendment, and stated in Hawaii
Housing Authority v. Midkiff, 467 U.S. 229, 241,
(1984) see also Berman v. Parker, 384 U.S. 26 (1954).
This differential standard of review echoes the
rational-basis test used to review economic regulation
under the Due Process and Equal Protection Clauses,
see e.g. FCC v. Beach Communications Inc., 508 U.S.
307, 313-314 (1993); Williamson v. Lee Optical of
Okla., Inc., 348 U.S. 483 (1955). A court confronted
with a plausible accusation of impermissible
favoritism to private parties must treat the objection
-9-

as a serious one and review the record. Undetected
impermissible favoritism of private parties is so acute
that a presumption of invalidity is warranted under
the Public Use Clause.
Legal missteps of the City that leads to the
conclusion this court must reach, is that the Taking
was a violation of the United States Fifth and
Fourteenth Amendments, and pursuant to 28 USC
81652, the California Constitutions of Article 1
Section 1, Article 1, Section 3(b)(4), Article 1 Section
4, Article 1, Section 7(a), Article 1 Section 9, Article 1,
Section 13, Article 1 Section 15, Article 1, Section
19(a), Article 1 Section 19(b), Article 1, Section 26,
Article 1 Section 28(e), Article 1, Section 28(f), Article
3 Section 1, Article 6, Section 13.
FACT & LAW.
The Official Record
demonstrates that no 30'day Notice was ever sent or
filed in any court, without this 30-day Notice being
given to Finnegan, there can be no declared nuisance.
Bogart v. Chapell, 396 F.3d 548, 555 (4th cir. 2005)
[Clear legal error],
FACT. The Official Record demonstrates that
there was no condition of disrepair, or substandard,
the house and the property located at 12546
Manzanita Drive, Dana Point, has always been
maintained in perfect condition. Central Vermont
Pub. Serv. Corp., v. Herbert, 341 F3d 186, 190 (2nd Cir.
(2003) [Clear usurpation of judicial power]. The
Official Record demonstrates that there was no
condition harmful to health, or indecent or offensive
to the senses, or a loss of enjoyment of life.
FACT & LAW.
The Official Record
demonstrates that when the City filed the Petition
-10-

against Finnegan and not the Property, the City
waived its right to assert a nuisance or other police
power. Continental Cas Co., v. Howard, lib F.2d 876
(7th Cir. 1985), [Real Parties]
FACT & LAW.
The Official Record
demonstrates that the City was not harmed, See,
Frothingham v. Mellon.
FACT & LAW.
The Official Record
demonstrates that no offensive situation or activity
met the legal definition of a nuisance. In re Jessup,
(1889) 81 C. 408, 21 P. 976, 22 P. 742, 22 P. 1028.
[Errors of law].
FACT & LAW.
The Official Record
demonstrates
that
unsubstantiated
alleged
accusations were never filed in any court of law, or
adjudicated in any court of law. Wellenkamp v. Bank
of America, 21 Cal. 3d 043, 947, 582 P. 2d 970, 972
(1978), [Must plead facts].
FACT & LAW.
The Official Record
demonstrates that there was no perceptible injury
caused by Finnegan, and allegations of perceptible
injury cannot create a cause of action where none
exists, that expansion of the law in this area would
have the undesired effect of fostering ill will and a
proliferation of litigation, In the absence of an
unlawful act, a landowner’s right to use his property
lawfully is a fundamental precept of a free society this
would clearly extend the statute to absurd
proportions. Servants of Paraclete v. Does, 204 F.3d
1005, 1012 (10th Cir. 2000) [Misunderstood controlling
law].

-11-

FACT & LAW.
The Official Record
demonstrates that the City never had no right, title,
estate, or interest in, or to the aforementioned real
property, or any part or portion thereof.
FACT & LAW.
The Official Record
demonstrates that there was no injunction filed which
is expressly authorized where it appears that a party
is doing an act that violates the rights of another
party. The City could not provide evidence pursuant
. to Cal. C.C. $3422(1)(2)(3), or CCP S526(a)(l)(2), that
an injunction was necessary, or that the City was
■entitled to any relief. United States v. Throckmorton,
(1878) 98 U.S.61, 25 L. Ed. 93.
FACT & LAW.
The Official Record
demonstrates that there was a violation of the Sixth
Amendment of the United States Constitution and
Articles 1 Section 15, 24, 26, and 28(f), of the
California Constitution. Gonzalez V Crosby, U.S. 125
S. Ct. 2641, 2646 L .Ed. 2d. (2005), [Exception To
finality].
FACT & LAW.
The Official Record
demonstrates that there was a violation of the Ninth
Amendment of the United States Constitution and
Articles 1 Section 1, 3(b)(2), 3(b)(4), 4, 7(a), 7(b), 9,
19(a), 19(b), 19(c), 19(e)(3), 24, 26, 28(e), 28(f), Article
3, Section 1, Article 4, Sections 16(a), 16(b), Article 6,
Section 13, Article 11, and Sections 7, 13. of the
California Constitution. Goldberg v. Kelly,j397 U.S.
254 (1970) [Trial type hearings].

-12-

CONCLUSION
Where the validity of a State statute is
sustaining a ruling repugnant to the United States
Constitutions and laws, and California Constitution,
or where any title, right, privilege or immunity is
specially set up or claimed under the Constitution,
treaties or statutes of, or commission held or authority
exercised under, the United States, and the decision
is in favor of its validity. When the state courts
nevertheless enforced its action, its action constituted
“an affirmation of its validity when so applied. United
States Constitution, Article VI, Section [2],
Supremacy Clause.
Jurisdiction was broadened in 1914, when
review was for the first time extended to assurance of
greater uniformity in federal law interpretation, not
simply assurance of federal supremacy, thus became
a major goal of the review statute.
The federal power over state judgments is to
correct them to the extent that they incorrectly
adjudge federal rights. United States Constitution,
Fourth Amendment.
In constitutional litigation, the most common
example of an independent and adequate state
substantive ground is a state court ruling that a state
ruling violates both the state and federal
constitutions.
Justice Clark’s dissent in Williams v. Georgia,
349 U.S. 375, 399 (1955), “A purported state ground is
not independent and adequate in two instances. First,
where the circumstances give rise to an inference that
the state is guilty of an evasion—an interpretation of
state law with the specific intent to deprive a litigant
•13-

of a federal right and where the state court decision
lacked fair support in the state law. Second where the
state law, throws such obstacles in the way of
enforcement of federal rights that it must be struct
down as unreasonably interfering with the
vindication of such rights ” In Henry v. Mississippi,
379 U.S. 443 (1965), suggested that state procedural
grounds are subject to broader Supreme Court
reexamination than state substantive grounds.
Justice Brennan’s majority opinion stated “that a
litigant’s procedural defaults in state proceedings do
not prevent vindication of his federal rights unless the
State’s insistence on compliance with its procedural
rules serves a legitimate state interest. In every case
we must inquire whether the enforcement of a
procedural forfeiture serves such an interest. If it
does not, the state procedural rule ought not be
permitted to bar vindication of important federal
rights.”
Where a state court has decided a federal
question of substance not theretofore determined by
this court, or has decided it in a way probably not in
accord with applicable decisions of this court. Where
a court of appeals has rendered a decision in conflict
with another court of appeals on the same matter; or
has decided an important question of federal law
which has been settled by this court; or has decided a
federal question in a way in conflict with applicable
decisions of this court; or has so far departed from the
accepted and usual course of judicial proceedings, or
so far sanctioned such a departure by a lower court, as
to call for an exercise of this court’s power of
supervision.
•14-

The City cannot state a cause of action for
nuisance under California law, and does not give rise
to a heightened duty of care, Cal. C.C. S3482, Acts
Authorized by Law, therefore this court must find that
the action by the City was a Taking.
Since the matter has been fully briefed,
however, thereby demonstrating that there is
absolutely no factual basis for a nuisance cause of
action, and since no prejudice results to the City, this
Court must find that the City violated the Fifth and
Fourteenth Amendments, of the United States
Constitution and numerous California Constitutional
violations, and there was a Taking.
PRAYER
Writ of Mandamus should issue, that property
at 25146 Manzanita Drive, Dana Point, be returned in
the exact condition when Taken, free and clear of
encumbrances, restitution of all property rights, all
personal property be returned, California Prop. 13, be
reinstated, the I.R.S. credit for sale of home be
reinstated, the illegal placed fire hydrant be removed,
all retaining walls that existed be replaced. All orders
granted to the City, and others of any fees or costs be
reversed. Expungement of the illegally placed Lien on
the San Clemente property, of all lis pendens and
expungement of all abstract judgments.
Dated: December J_L, 2020

Jack R. Finnegan
-15-

